SUPREME COURT

FILED

t

MAR 1 7 2021
Jorge Navarrete Clerk

S266867

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re JOHN LAPONTE on Habeas Corpus.
The petition for writ of habeas corpus is denied.

CANTIL-SAKAUYE
ChiefJustice

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT

609RT OF APPEAL - SECOHi BIST.

DIVISION ONE

FILED
DANIEL P. POTTER, Clerk

B309741

In re

JLozano

(Super. Ct. L.A. County
No. KA001795)

JOHN LAPONTE
On

ORDER

Habeas Corpus.

THE COURT*:
The petition for writ of habeas corpus, filed January 4, 2021, has been
read and considered.
To the extent petitioner challenges the Board of Parole Hearings’
findings at petitioner’s 2020 parole hearing, the petition is denied without
prejudice to petitioner’s filing a new petition in the superior court challenging
that hearing and including a transcript of the hearing.
In all other respects, the petition is denied.

*ROTHSCHILD, P. J.

CHANEY,

Deputy Clerk

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
raLjr]® ^ 1 ^S(b)° This o^nirone&1 on opinions not certified for
not been certified for publication

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION ONE
In re

B267768
JOHN RAFAEL LAPONTE,
on

(Los Angeles County
Super. Ct. No. KA001795)
COURT OF APPEAL-SECOND DiST

IF E E 1 E

Elabeas Corpus.

JUL 2 § 2016
Clert

JOSEPH A LAME

Hssm &i'*

ORIGINAL PROCEEDING; petition for a writ of habeas corpus. Steven D.
Blades, Judge. Petition granted.
Michael Satris, under appointment by the Court of Appeal, for Petitioner.
Kamala D. Harris, Attorney General, Julie A. Malone, Acting Assistant Attorney
General and Charles Chung, Deputy Attorney General for Respondent.

John Rafael Laponte1 petitions for a writ of habeas corpus relating to a 2009
decision of the Board of Parole Hearing denying him parole. Because “some evidence”
supported the Board of Parole Hearing’s determination to deny Laponte parole, Laponte’s
petition is denied to the extent it seeks review of that decision. We also decline to
address at this point Laponte’s contention that his sentence is unconstitutionally
disproportionate to his culpability. Upon review of the petition, the return, the traverse,
and related exhibits, and solely with respect to the issue of setting his base term and
adjusted base term, we agree with Laponte, however, that under the particular
circumstances of his case, and in light of In re Butler (2015) 236 Cal.App.4th 1222, he is
entitled to have his base and adjusted base term set rather than waiting until his, next
scheduled parole hearing in November 2019. Accordingly, we grant the petition and
order the Board of Parole Hearings to provide Laponte with the calculation of his base
and adjusted base term or to conduct a new parole hearing at which Laponte’s base term
and adjusted base term shall be calculated.

BACKGROUND
On November 17, 1989, when he was 27 years old, Laponte kidnapped
20-year-old Zoraida Noriega at gunpoint and took her to a motel, where two codefendants
joined him. All three carried firearms. One of the men called Noriega’s family
and demanded $15,000 ransom for her release. The family contacted the sheriffs
department, which traced the call to the motel. Deputies arrived at the motel and
observed Laponte leave the motel room and drive away. The deputies subsequently
arrested Laponte. Laponte’s codefendants were later observed leaving the motel room,
using Noriega as a hostage. The deputies pursued the codefendants’ vehicle, eventually
stopping them, arresting the two men, and releasing Noriega, who was unharmed.

1 The petition was filed under the name John Rafael Aponte. Aponte was
committed to the California Department of Corrections and Rehabilitation under the
name John Laponte. For purposes of this opinion and order we will use Laponte to refer
to the petitioner.
2

In an information dated December 20, 1989, Laponte was charged with one count
of kidnapping for ransom (Pen. Code, § 209, subd. (a))2, one count of false imprisonment
by violence (§ 236), one count of assault with a firearm (§ 245, subd. (a)(2)), and one
count of second degree robbery (§ 211), Each count included allegations that Laponte
personally used a firearm.
At a hearing on April 13, 1990, Laponte pleaded guilty to kidnapping to commit
robbery (§ 209, subd. (b)), for which he was sentenced to life with the possibility of
parole. The trial court struck the firearm allegation with respect to count one. With
respect to that count, Laponte was infomied that he would be eligible for parole at the
end of seven years, which would be the minimum sentence, but that the specific sentence
would be set by the BPH and that it would vary depending on the facts, and how he
conducted himself in prison. With respect to count two, the court selected the middle
term of two years and added two years for the firearm enhancement, and stayed the
sentence pursuant to section 654. With respect to counts three and four, the court
selected the middle term of three years, added two years for the firearm enhancement,
and ordered counts three and four to be sewed concurrently with count one. The guilty
plea form completed by Laponte stated that the sentence for count one shall be life
with the possibility of parole, and that each of counts two, three and four were to run
concurrent with the sentence imposed on count one; the abstract of judgment, however,
conforms to the trial court’s ruling at the sentencing hearing and states that count two was
stayed while counts three and four were to run concurrently.3

specifiedSubsequent statutory references are to the Penal Code, unless otherwise
3 In his traverse, petitioner raises a new claim that each of counts 2, 3 and 4
should have been stayed pursuant to section 654. Because this issue was not raised in the
petition, we do not consider it. (In re Clark (1993) 5 Cal.4th 750, 781, fn. f6 [“attempts
to introduce additional claims'or wholly .different factual bases for those claims in a
traverse do not expand the scope of the proceeding which is limited to the claims which
the court initially determined stated a prima facie case for relief’].)

3

•

Prior to this incident, Laponte had no adult or juvenile criminal history, had served
in the military, and was self-employed in the auto detailing business. Laponte stated
that the actions taken with respect to Noriega were retaliation for an incident in which
Noriega allegedly “ ‘mastermindjed]’ ” the robbery of a neighbor’s home.
Laponte’s Minimum Eligible Parole Date (MEPD) was September 15, 1996.
Laponte appeared before the BPH for his initial parole consideration hearing on
December 6, 1995, and was denied parole. His most recent hearing, his eighth, took
place on November 23, 2009, and resulted in a ten-year denial. His next scheduled
hearing date is no later than November 23, 2019.
At the 2009 hearing, the BPH concluded that Laponte was unsuitable for parole
based on factors including the commitment offense; Laponte’s unstable social history
and relationships; disciplinary violations that included a previous attempt to escape
rrom prison; Laponte’s past and present mental state, including demonstrating anger and
defiance; an unfavorable psychological report; and Laponte’s attitude towards the crime
and lack of insight. Laponte made a brief appearance at the hearing and made a
statement, but then elected to leave and did not remain for the remainder of the hearing.
In 2012 and 2014, Laponte requested that the 2019 hearing date be advanced,
which request the Board denied. A letter from BPH dated November 24, 2014 informed
Laponte that the Board would not consider another request to advance his 2019 hearing
any earlier than September 26,2017.
Laponte argues in his petition that he should be released on parole, that his
sentence is so disproportionate to his individual culpability that it violates the
constitutional prohibition of cruel and unusual punishment, and that the BPH should
be required to set his base and adjusted base tenn. The superior court denied Laponte’s
petition on September 22, 2015. We issued an order to show cause on March 9. 2016.

4

DISCUSSION
A.

2009 Parole Determination

Laponte’s most recent parole hearing took place on November 23, 2009. Laponte
elected to proceed without counsel at the hearing, disputed the panel’s jurisdiction over
him, unilaterally declared the he was concluding the hearing, and left the room. BPH,
after reviewing the evidence supporting and opposing Laponte’s suitability for parole,
determined that releasing Laponte would pose an unreasonable risk to public safety.
The panel heard evidence that from Laponte’s first hearing in 1995 and throughout
subsequent hearings he was belligerent and argumentative, failed to conduct himself
appropriately in prison, and did not accept responsibility for the life crime or demonstrate
insight, believing that he was justified in kidnapping Noriega.
The BPH is the administrative agency authorized to grant parole and set release
dates. (§§ 3040, 5075 et seq.) The BPH ‘“shall normally set a parole release date’ one
year prior to the inmate’s minimum eligible parole release date, and shall set the date ‘in
a manner that will provide uniform terms for offenses of similar gravity and magnitude ■
[with ] respect to their threat to the public . . ..’ (§ 3041, subd. (a) . . .) ... [A] release
date must be set ‘unless [the Board] determines that. . .public safety requires a more
lengthy period of incarceration for this individual, and that a parole date, therefore,
cannot be fixed at this meeting.’ ” {In re Lawrence (2008) 44 Cal.4th 1181, 1202.)
If “‘some evidence,’ a ‘modicum’ of evidence, supports the Board’s determination
that the inmate currently poses an unreasonable risk to public safety,” we will affirm that
decision. {In re Swanigan (2015) 240 Cal.App.4th 1, 14.) The BPH satisfied this
standard in making its 2009 determination that Laponte remains an unreasonable risk to
public safety and we agree that that “some evidence” supports that decision.
The BPH found that the commitment offense was carried out in a dispassionate
and calculated manner, and that the motive was very trivial in relation to the offense. The
panel also concluded that Laponte has an unstable social history and lacks insight into the
life crime, as reflected by .the fact that he lacks empathy and remorse and continues to
believe that his actions Were justified.
5

Laponte has had 27 serious disciplinary violations, with five occurring after his
parole hearing in 2007. Further, a 2009 report of BPH Forensic Assessment Division
Forensic Psychologist James McNaim concluded that Laponte presented a “Moderate”
risk of violence. In 1990, he had a 128B disciplinary incident for attempting to escape.
Laponte admitted to McNaim that he committed Noriega’s kidnapping, saying,
“I did it.” Laponte has “problems with impulsivity and anger based on his actions in
the commitment offense and the many disciplinary infractions he has received While
incarcerated.” On the instrument used to measure levels of risk to recidivate, Laponte
received a score in the “medium” category. McNaim concluded that “[ajfter weighing all
data from the available records, the clinical interview and risk assessment data, it is
believed that Mr. [Laponte] presents a relatively MODERATE RISK for violence in the
free community.” (Boldface and underline omitted.) This evidence before the BPH
supports the panel’s finding that Laponte presents an unreasonable risk Of danger and the
resulting decision denying parole.
B.

Term Setting & Butler

Section 3041, subdivision (b) provides that “[t]he panel or the board, sibling en
banc, shall grant parole to an inmate unless it determines that the gravity of the current
convicied offense or offenses, or the timing and gravity of current or past convicted
offense or offenses, is such that consideration of the public safety requires a more lengthy
period of incarceration for this individual. (§ 3041, subd. (b).) Our Supreme Court has
held that this consideration of public safety takes precedence over uniformity in
sentencing; (In re Dannenberg (2005) 34 Cai.4th 1061, 1096.) In Dannenberg, the
Court concluded that the requirement that inmates were “normally” to receive “uniform”
parole dates4 did not “impose upon the Board a general obligation to fix actual maximum

4 Section 3041, subdivision (a) has since been revised to remove the reference to
uniformity. Section 1170 states that “the purpose of imprisonment for crime is
punishment. This purpose is best served by terms proportionate to the seriousness of the
offense with provision for uniformity in the sentences of offenders committing the same
offense under similar circumstances. [. . .] the elimination of disparity and the provision
6

terms, tailored to individual culpability, for indeterminate life inmates. Our prior ruling
that the parole authority had such a general duty was influenced by the .nature and
provisions of the more comprehensive indeterminate sentencing system then in effect.”
(.Dannenberg, supra, 34 Cal.4th at 1096.)
This conclusion, however, addressed uniformity rather than the issue of
proportionality with respect to any requirement for calculating an inmate’s base term
and adjusted base term. The Dannenberg Court also held that “even if sentenced to a
life-maximum term, no prisoner can be held for a period grossly disproportionate to
his or her individual culpability for the commitment offense. Such excessive
confinement, we have'held,'violates'the cruel or unusual punishment clause' (art. I, § 17)
of the California Constitution. [Citations] Thus, we acknowledge, section 3041,
subdivision (b) cannot authorize such an inmate’s retention, even for reasons of public
safety, beyond this constitutional maximum period of confinement.” (.Dannenberg,
supra, 34 Cal.4th at p. 1096.) Laponte contends that his confinement exceeds that limit.
The issue of calculating a base and adjusted base term in the context of an
argument that a sentence was constitutionally disproportionate to the individual’s
culpability was raised in Butler, which resulted in a settlement agreement pursuant to
which the BPH changed the way it calculates base and adjusted base terms for every life
inmate. {In re Butler, supra, 236 Cal.App.4th atp. 1229).
Prior to the settlement, a life inmate’s term wus not calculated until the inmate was
found suitable .for parole. As a result of the settlement in Butler, however, BPH agreed to
begin setting base terms and adjusted base terms at an inmate’s initial parole hearing
rather than waiting until the date on which an inmate receives a determination that he is
suitable for parole. The People argue that as a result of the Butler settlement, Laponte’s
petition is moot because his base and adjusted base term will be calculated at his next
scheduled parole hearing after the effective date of Butler. Under most circumstances,
of uniformity of sentences can best be achieved by determinate sentences fixed by statute
in proportion to the seriousness'of the offense as determined by the Legislature to be
imposed by the court with specified discretion.” (Pen. Code, § 1170, subd. (a)(1).)

7

we agree that the relief provided in Butler renders moot challenges to the BPH policy.
In this case, however, by the time Laponte receives his next hearing he will have been
incarcerated for almost 30 years without having had his base and adjusted base term set.
We are concerned by this delay in light of the potential that the base term and adjusted
base term applicable to Laponte may be less the 25 years he has already served.5
Without this information, Laponte is unable to utilize that information in order to
challenge the proportionality of his confinement. “That the base term and adjusted base
term relate to proportionality, and can serve as useful indicators of whether denial of
parole will result in constitutionally excessive punishment, is evident in the fact that the
matters considered by the Board when it sets the base term relate almost entirely to a
prisoner’s individual culpability for the base offense. It is also clear from the genesis of
these concepts and the guidelines that define them, which were adopted by a former
parole board precisely in order to measure constitutional proportionality during the parole
granting process. (Butler, supra, 236 Cal.App.4th at p. 1237.)
Laponte attempted to obtain his base term from BPH prior to filing the instant
petition. On May 13, 2014, Laponte wrote the BPH and requested a term calculation
based on the Butler decision.^ On June 11, 2014 the BPH responded, in relevant part:
“The Butler decision requires the Board to set base terms and adjusted base terms for ail
life-term inmates at their initial parole consideration hearing, or at their next scheduled
parole consideration hearing that results in a grant of parole, a denial of parole, a tie vote,
or a stipulated denial of parole, [f] The base term will be established pursuant to the
matrices and directives found in Title 15 of the California Code ofRegulations. The
adjusted base term refers to the base term after it has been adjusted for enhancement
5 Laponte’s appointed counsel asserts that the matrix applicable to Laponte’s
offense “suggests a term somewhere in the range of 9-13 years, depending on the Board’s
discretionary determination.” Laponte alleges that the base tenn set for one of his
codefendants was 14 years.
6 This letter was provided to this Court in a prior petition for writ of habeas
corpus filed by Laponte. We may take judicial notice of Laponte’s prior petition
(Evid. Code, § 452, subd. (d).)
8

purposes pursuant to Title 15 of the California Code ofRegulations. [ID - • ■ [ID Your
next hearing is scheduled no later than November 23, 2019, at which time you will
receive a term calculation as described above.”
In determining that the Butler settlement provided a “substantial benefit” to life
prisoners justifying an award of attorneys fees, the Butler court concluded that “[t]he
settlement and stipulated order will rectify or at least diminish this and other problems
attributable to the Board’s former policy and practice.” (Butler, supra, 236 Cal.App.4th
at p. 1242, italics added.) Because BPH will not calculate Laponte’s base term and
adjusted base term until 2019, this potential constitutional violation cannot be said to be
rectified or sufficiently diminished. Given that “the base term and adjusted base teim
relate to proportionality, and can serve as useful indicators of whether denial of parole
will result in constitutionally excessive punishment,” (Butler, supra, 236 Cal.App.4th
at p. 1237), facilitating judicial review, Laponte is entitled to have his teim set. “A
reviewing court can most usefully analyze a life prisoner’s claim that the denial of parole
results in a cruel and/or unusual punishment after the parole authority has established a
term that can be subjected to judicial review.. . . Once the primary term is fixed by the
[parole authority], however, all of the relevant data regarding the particular inmate, the
circumstances of his offense, and the criteria upon which the term is based will have been
marshaled by the [parole authority], thus enabling petitioner to set out the basis or bases
for his complaint, while at the same time providing the court with a record adequate to
permit meaningful review.” (Id. at p. 1243.)
Because Laponte’s situation results in such a lengthy delay in calculating his base
and adjusted base term, it does not sufficiently resolve, under these circumstances, the
constitutional concerns identified in Butler. Accordingly, we grant the petition solely to
the extent that it requests the BPH to calculate Laponte’s base term and adjusted base
term.

9

DISPOSITION
Within 90 days, the Board is directed to provide Laponte with either a written
calculation of Laponte’s base and adjusted base term or a date for a new hearing at which
time the Board shall provide Laponte with his base term and adjusted base term, In all
other respects, the petition is denied.
NOT TO BE PUBLISHED.

ROTHSCHILD, P. J.

We concur:

CHANEY, J.

JOHNSON, J.

10

Additional material
from this filing is
available in the
Clerk's Office.

